No. 20-28
IN THE

Supreme Court of the United States
PRICEWATERHOUSECOOPERS LLP, ET AL., Petitioners,
v.
TIMOTHY D. LAURENT, ET AL., Respondents.

____________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s Order of April 15,
2020) that I have, this 17th day of August, 2020, served the Brief of the Chamber of
Commerce of the United States, the American Benefits Council, and the Business
Roundtable as Amici Curiae Supporting Petitioners upon each party separately
represented in this proceeding by causing an electronic copy of the same to be
delivered to counsel of record at the e-mail address listed below:
Miguel A. Estrada
mestrada@gibsondunn.com
Counsel for Petitioners
Leon Dayan
ldayan@bredhoff.com
Counsel for Respondents

Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

Jaime A. Santos
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
Counsel for Amici Curiae
August 17, 2020

2

